                   
                   
                   
                   
                   
                   
                   
    Audit of the Management of
  
    Records at the Washington
 
     National Records Center
 
                   
                   
    OIG Audit Report No. 12­05
 
           Report 2 of 2
 
                   
                   
          March 27, 2012
  
     
Table of Contents 



Executive Summary ........................................................................................ 3
 

Background ..................................................................................................... 5
 

Objectives, Scope, Methodology .................................................................... 8
 

Audit Results ................................................................................................. 10
 

Appendix A – Acronyms and Abbreviations ................................................ 30
 

Appendix B – Management’s Response to the Report ................................. 31
 

Appendix C – Report Distribution List......................................................... 32
 
                                                                   OIG Audit Report No. 12-05


Executive Summary

The National Archives and Records Administration’s (NARA) Washington National Records
Center (WNRC) provides records storage, reference, and disposal services for agencies of the
Federal Government on a reimbursable basis. WNRC contains 3.9 million cubic feet of records
storage space, of which 551,284 cubic feet is for classified records. WNRC holds the largest
volume of classified records among NARA's Federal Records Centers (FRCs).

NARA’s Office of Inspector General (OIG) completed an audit of the management of records at
WNRC. The objective of the audit was to evaluate and assess the adequacy of controls over the
management and handling of records at WNRC. Specifically, this audit focused on whether
controls were in place to adequately safeguard and secure the records held at WNRC. This audit
report represents the second of two audit reports issued for this audit. The first audit report
focused on security. This report focuses on the handling of records, the Archives and Records
Centers Information System (ARCIS), training, policies, and procedures.

Our audit disclosed management controls were either missing, ineffective or inadequate to
appropriately manage and handle records at WNRC. This coupled with a lack of effective
management oversight resulted in an environment where records cannot be properly accounted
for, processed, disposed of or adequately safeguarded. As a result, WNRC revenue generating
activities that depend on proper records management activities were adversely impacted and
records at the WNRC were at risk of possible loss, damage, compromise, or unauthorized
disclosure. Specifically, we noted:

      Record classification levels were not reviewed in detail to ensure classified documents
       were appropriately segregated.
      There were no controls in place to track and monitor new records stored in WNRC
       hallways.
      A formalized problem tracking and resolution process was not in place to properly track
       problems with records received, stored, or removed from WNRC.
      Controls over disposals were not adequate to ensure records were disposed of timely.
      Periodic inventories of the records held at WNRC were not conducted.
      Records stored at WNRC were not adequately safeguarded as records were not carefully
       maintained.
      ARCIS access was not properly restricted as terminated and transferred employees
       maintained access after their separation from WNRC.
      ARCIS was not updated timely to reflect the current status of records held at WNRC.
      WNRC did not require agencies to use the ARCIS customer portal.
      WNRC employees have not been trained on the processes outlined in the Classified
       Standard Operating Procedures (SOP) manual. In addition, there was no monitoring in
       place to ensure the procedures in the Classified SOP were operating as written.
      Guidelines were not followed or enforced when agencies sent records to WNRC.
      Documented procedures did not exist for many WNRC operations.

                                           Page 3
                        National Archives and Records Administration
                                                                OIG Audit Report No. 12-05



We made 12 recommendations in this report which we believe, once implemented, will address
weaknesses cited in this review.




                                          Page 4
                       National Archives and Records Administration
                                                                      OIG Audit Report No. 12-05


Background

The National Archives and Records Administration (NARA) serves as our nation’s record
keeper. Since 1950, the Federal Records Centers (FRCs) have maintained the nation's records,
including citizen tax returns, Official Military Personnel Folders, passport applications, and other
records containing classified information. Every day, NARA's FRCs deliver on the agency's
mission to provide ready access to essential evidence. NARA is authorized to establish,
maintain, and operate records centers for Federal agencies under 44 U.S.C. 2907, and to approve
a records center maintained and operated by an agency under 44 U.S.C. 3103.

The Washington National Records Center (WNRC) was constructed in 1966 and is located on
the Suitland Federal Complex in Suitland, Maryland. The building is approximately 565 feet
long and 723 feet wide, comprising approximately 820,000 square feet providing 3.9 million
cubic feet of records storage space. The building is subdivided into 20 independent stack areas;
each stack is approximately 40,000 square feet. WNRC has 551,284 cubic feet available for
classified records, and stores the largest volume of classified records among NARA's FRCs.

WNRC provides records management services to headquarters and field offices of Federal
agencies located in the District of Columbia, Maryland, Virginia, and West Virginia. It also
serves Federal Courts located in the District of Columbia and Armed Forces worldwide.
WNRC’s largest customers are the Social Security Administration, the Internal Revenue Service,
and agencies of the Department of Defense. WNRC is responsible for the safe storage and
referencing of records ranging from Unclassified to Top Secret.

WNRC is the first stop for Federal records after they are no longer actively used by the agency of
origin. WNRC accepts records for storage and servicing in accordance with approved agency
records retention schedules, General Records Schedules, and prescribed archival standards.
Agency records stay at the WNRC, where they are tracked through an automated database
(Archives and Records Centers Information System – (ARCIS)), until they are either destroyed
through recycling or accepted by NARA as permanent records. All Federal agency records
management and interaction with the facility is governed by the Code of Federal Regulations as
it relates to records management. Access to most records stored at the facility is controlled by the
agency of origin; however some court records are open to the public.

History of Problems at WNRC
In 1966 WNRC was created from the consolidation of five separate buildings in Northern
Virginia. Since the time of its opening, WNRC has been plagued with problems evidencing a
lack of management oversight and attention to internal controls.

From 1966 to 2009, WNRC used charge cards to track records removed from stack areas
including the Vault. In 1975 NARA started using a computerized system, National Archives and
Records Service-5 (NARS-5), to control FRC holdings. The system had limited capability as a
number of fields precluded accurate listing of box numbers and descriptions of odd-sized

                                            Page 5
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 12-05


containers. The system was updated in the 1980’s to include a map, Space Information System,
and error cycle reports.

From 1982 to the early 1990s NARA authorized the Department of Army to review multiple
collections of Army records originating in Southeast Asia. Army personnel were given access to
enter the Vault and remove their records for declassification review. From that time, various
boxes from collections (RG-319 Army Chief of Staff, RG-334 Unified Commands, and RG-338
Army Commands Military Assistance Commands) of Army records have been missing without
explanation due to the fact boxes were not charged out, but sent to various Army facilities in the
Washington area.

Classified records were transferred from other facilities to WNRC in 1981 (Mechanicsburg) and
1997 (Bayonne). Management indicated the records lacked transfer numbers or the numbers did
not match NARS-5. Physical markings of transfer numbers on the boxes sometimes duplicated
existing transfer numbers at WNRC. These boxes are presently still a problem.

Management further indicated in 1995, as a result of Executive Order 12958, declassification
reviews began in the Vault and agencies were allowed to enter the Vault and retrieve their
records for declassification review. In 1995 the WNRC Director estimated an additional 20 full-
time employees were required to service the requests without customer agency assistance.
Unfortunately, additional dollars were not available for additional full-time employees and as a
result, many boxes were not charged out correctly and remain missing today.

Up until the year 2000, there were several moves of records at WNRC, but data about internal
relocations were sometimes entered improperly in NARS-5, a situation management is still
trying to correct today.

Prior to 2001 Vault attendants were not assigned to monitor the Vault and only a sign-in/sign-out
sheet was used as a monitoring tool. In 2007, WNRC hired the first Information Security
Program Manager (ISPM) and a Vault Control Desk Attendant whose responsibility was to
monitor every person who entered the Vault. In 2009 a Vault Manager was hired to coordinate
and oversee all the reference and refile activities in the Vault and supervise Vault employees.

In 2007, a Vault inventory revealed that boxes of records belonging to several agencies were
missing. A Problem Resolution Team was formed to resolve questions associated with the
missing boxes. Three Vault employees, including the Vault Manager, were assigned to the team.
In November 2010, WNRC indicated 3,202 boxes (1,864 classified and 1,338 unclassified) from
the Vault were missing. In July 2011, WNRC began notifying agencies about the missing
classified boxes.

Prior OIG Reports
U




In January 2009 the Office of Inspector General issued a Management Letter (Management
Letter OI 09-01) which identified a series of problems at WNRC relating to the management and
handling of classified material. These problems, dating back as far as 1998, resulted in
unacceptable and even dangerous practices associated with classified records management at
WNRC. The OIG report identified the following four specific issues 1) a comprehensive and
                                            Page 6
                         National Archives and Records Administration
                                                                     OIG Audit Report No. 12-05


thorough Standard Operating Procedure manual for the Vault did not exist; 2) there was no
coordination or consistency among all NARA records centers holding classified material; 3)
there was co-mingling of classified and unclassified records; and 4) the ongoing arrival of 5,000
boxes of classified material from St. Louis would contribute to the issues noted above at WNRC.
The issues mentioned in this Management Letter contributed to the improper management of
classified material. Management responded to the letter by defining action taken or planned.




                                            Page 7
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 12-05


Objectives, Scope, Methodology

The objective of the audit was to evaluate and assess the adequacy of controls over the
management and handling of records at WNRC. Our audit focused on the handling and
management of unclassified and classified records. Audit work was performed at WNRC in
Suitland, MD and at Archives II in College Park, MD with representatives from WNRC,
Security Management Division (BX), and Office of Human Capital (H).

In support of the audit we examined applicable laws, regulations, and NARA guidance including
(a) NARA 202, Classified Information Security Program; (b) Supplement to NARA 202,
Classified Information Security Handbook; (c) Executive Order 13526, Classified National
Security Information; (d) Executive Order 12968, Access to Classified Information; (e) Code of
Federal Regulations - 32 CFR 2001, Classified National Security Information; (f) Code of
Federal Regulations - 36 CFR 1234, Facility Standards for Records; (g) Code of Federal
Regulations 36 CFR 1233, Transfer, Use, and Disposition of Records in a NARA Federal
Records Center; (h) Code of Federal Regulations 36 CFR 1280, Use of NARA Facilities:
General Information on Using NARA Facilities; (i) Code of Federal Regulations 41 CFR 102-
74.375, Conduct on Federal Property: Admission to Property; (j) Code of Federal Regulations
36 CFR 1228 Subpart K, Facility Standards for Record Storage Facilities; (k) Code of Federal
Regulations 5 CFR § 735.203, Administrative Personnel: Employee Responsibilities and
Conduct; (l) Office of Management and Budget (OMB) Circular A-123, Management's
Responsibility for Internal Control; (m) NARA 204, Access Privilege Procedures at AI and AII;
(n) NARA 271, Key Control at NARA Facilities; (o) NARA 275, Background and Identity
Verification Process for Access Privileges; (p) Washington National Records Center Standard
Operating Procedures for Classified Operations; (q) Government Accountability Office,
Standards for Internal Control in the Federal Government; (r) NARA 260, Food and Drink near
Archival and Record Center Holding; (s) Code of Federal Regulations 36 CFR 1220, Federal
Record; and (t) NARA 279, Clearance Procedures for Separating or Reassigned NARA
Employees, Contractor Employees, Volunteers, Interns, and Foundation Employees.

We held discussions with NARA employees and officials within WNRC, BX, and H. We
evaluated the adequacy of controls over processing new transfers of records, disposal of records,
requests for existing records, and refiling of records. We also evaluated controls over record
security including, Vault combination changes, clearance levels of Vault employees and
contractors, loading dock procedures, physical security, agency authorizations, and badge access
rights for employees and contractors. We also reviewed and followed up on action items
discussed in WNRC’s Reports on Incidents (ROI). Finally, we reviewed ARCIS system user
rights and access, policies and procedures, and training provided to employees.

Our audit work was performed at WNRC in Suitland, Maryland between November 2010 and
August 2011. We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our

                                            Page 8
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 12-05


audit objectives. We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                            Page 9
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 12-05


Audit Results

1. Record classification levels were not reviewed in detail.
Documentation accompanying boxes received were not reviewed in detail by personnel to ensure
classified documents were appropriately segregated. This occurred because WNRC staff relied
on the markings on the outside of boxes rather than reviewing the accompanying documentation
and the ARCIS system to determine the classification. According to the Classified SOP, it is
WNRC’s responsibility to adequately store and protect classified records of other agencies.
Without a detailed review of the classification of records, records may not be adequately
protected. In addition, because detailed reviews were not always performed, classified boxes
have ended up in the unclassified areas of WNRC. This increases the risk of possible loss,
compromise, and unauthorized disclosure of classified information.

During the course of our audit we noted WNRC staff did not review agency manifests and
compare them to ARCIS to validate the classification of new transfers. We noted a delivery from
an agency where classification levels on boxes were different than the accompanying
documentation sent from the agency. However, WNRC staff present at the time did not take the
initiative to determine the proper classification. The markings on the outside of the boxes
indicated the contents were unclassified. An employee attempted to take the boxes into the
mailroom for processing and stated the unclassified Refile Supervisor would determine the
correct classification. We examined the records and noticed the accompanying documentation
indicated the contents were classified as Secret. Although there was a discrepancy, none of the
WNRC employees present validated the classification by calling the agency, reviewing ARCIS,
or involving the Information Security Program Manager (ISPM). This lack of attention to detail
has attributed to incidents at WNRC where classified boxes were found in unclassified storage
areas of WNRC.




                    Figure 1: Boxes marked unclassified, but accompanying documents

                              indicated the contents were classified as Secret. 

                                            Page 10 

                         National Archives and Records Administration
                                                                           OIG Audit Report No. 12-05



We identified that as a matter of routine, WNRC staff failed to protect classified records from
potential compromise. As an example, while OIG auditors were present, we observed a delivery
of an unmarked crate from a non-government courier. The classification of the box contents was
unknown by the mailroom staff present to accept the delivery. However, no one attempted to
figure out the contents of the boxes or their classification. The mailroom employee was going to
initially accept the delivery of the crate and leave it on the loading dock. The OIG suggested the
Vault Manager be called to come inspect the contents of the crate. After review by the Vault
Manager, it was determined in this instance that the records were unclassified. According to the
Classified SOP, Vault staff are to verify that each piece of mail or package does not contain
classified information before allowing the courier to leave the loading dock. In addition, Vault
staff will use the computer terminal located on the lower loading dock to check ARCIS to verify
the classification level of each piece of mail or part of a delivery. Clearly these internal control
mechanisms were being bypassed on a routine basis.




                              Figure 2: Unmarked crate delivered to WNRC

In addition, at the beginning of our audit, we noted records were not all received by cleared
personnel to determine if they were classified or unclassified. Although it is the process at this
time for cleared personnel to receive records on the lower loading dock, it was not consistently
performed. By not having cleared personnel present at all times, there is the risk classified
records could be received by uncleared personnel. According to the Classified SOP, Vault staff
will receive all carriers bringing deliveries to the lower loading dock to ensure adequate
protection of any classified information contained therein.

Recommendation 1
The Executive of Agency Services should ensure:

   a) A robust review process for records received at WNRC is implemented and monitored.
   b) The current policy of requiring cleared personnel to receive all classified records is
      enforced and monitored.


                                             Page 11
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 12-05


Management Response

Management concurred with the recommendations.



2. There were inadequate controls in place to track and monitor
   new records stored in WNRC hallways.
WNRC does not have an inventory log to track the location of records stored in hallways and
ARCIS does not track their temporary storage location. This occurred because storage
limitations at WNRC require new records to be stored in hallways, however, management failed
to implement controls to properly track the temporary storage locations of these records. WNRC
should have adequate and proper documentation of record locations in order to appropriately
manage and protect records held for agencies. Without a tracking mechanism for these records,
there is the potential they may be misplaced.

Due to the lack of storage space at WNRC, new records were stored in the hallways until space
became available on the shelves. According to the Transfer and Disposition (T&D) Supervisor,
the volume of records was too great and fluctuated too much to track what was in the hallways.
She stated in order to identify what may be in the hallways, ARCIS can be searched for records
in the RECEIVED status, but ARCIS does not give the specific location of the record. We noted
this search did not give an accurate picture of what was in the hallways as there were records
with an incorrect status of RECEIVED (see finding #8). We ran a query for all records in a
RECEIVED status as of May 16, 2011 and August 31, 2011. Our query revealed there were over
5,400 and 6,111 records listed in a RECEIVED status, respectively. Records in a received status
fluctuate and these two queries may or may not have contained any of the same records. The
volume of records sitting in the hallways increases the risk that a record could become misplaced
or subject to unauthorized access.

WNRC management informed us of efforts underway to close the existing facility and transfer
all functions and holdings to a new and appropriate storage and processing facility projected for
completion in 2014. While a new facility will provide additional storage in the future,
management will need to put additional controls in place to track the location of records
currently arriving at WNRC.




                                            Page 12
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 12-05




                          Figure 3: Records stored in the hallways at WNRC

Recommendation 2

The Executive of Agency Services should ensure a formal tracking mechanism is implemented
for new records received, but stored in the hallways due to lack of shelving space.

Management Response

Management concurred with the recommendation.



3. A formalized problem tracking and resolution process was not in
   place at WNRC.

There was no system in place to properly track problems with records received, stored, or
removed from WNRC. There was also no process in place to ensure all problems identified were
reviewed and resolved in a timely manner. This occurred because management failed to
implement a systematic process where all issues were reviewed and resolved. The Government
Accountability Office (GAO) Standards for Internal Control in the Federal Government asserts
management should design and implement internal controls to protect its assets. By not having a
formalized problem resolution process, WNRC is not able to effectively identify and address
reoccurring problems and weaknesses, resulting in records being misplaced, lost, or provided to
the wrong requestor.




                                           Page 13
                        National Archives and Records Administration
                                                                     OIG Audit Report No. 12-05


The following are examples of problems that occurred in the absence of a problem tracking and
resolution process.

Incorrect boxes provided to researcher
On two different occasions a researcher for a United States Senator was provided boxes he did
not request. In the first incident, a request was sent by the researcher via email requesting to
view 10 boxes. When the researcher came to WNRC’s Unclassified Research Room to view the
10 boxes, he was provided 6 boxes that were not what he requested, but were the retired records
for a different Senator. The researcher informed the Research Room attendant of the error and
the correct boxes were provided.

When the researcher requested the 10 boxes, the customer reference number was provided. In
this case the customer reference number (329-11-A079) for the ten boxes was mistaken to be the
ARCIS transfer number by a staff member not familiar with the issues surrounding WNRC’s
ARCIS-era use of Customer Reference Number versus ARCIS Transfer Numbers. These issues
included allowing agencies to provide customer reference numbers when requesting records
instead of ARCIS transfer numbers. In this case it led to a problem where a researcher was
provided records they were not authorized to access. The current process is confusing and, with
the passage of time, almost guarantees to cause additional incidents wherein customers receive
incorrect records.

In the second incident, the same researcher was then authorized by the Senator’s office to pickup
72 boxes from WNRC for offsite review, but was given two more boxes than requested (a total
of 74 boxes). A quality assurance reviewer assigned to the WNRC Mailroom reviewed the 72
boxes, confirming all were present and appropriately marked. But, when the boxes were loaded
into the researcher’s vehicle, the researcher noticed there were 74 boxes instead of the 72 he was
authorized to retrieve. He informed the Archives Technician (from the Mailroom), who simply
changed the ARCIS paperwork to reflect the higher number of boxes instead of determining if
the researcher was given the appropriate boxes. When the researcher returned the boxes to
WNRC, he mentioned the additional boxes to another Archives Technician and WNRC’s
Congressional Liaison. The Congressional Liaison investigated and identified the record transfer
number for the 72 boxes requested was different from the record transfer number for the
additional two boxes. The two boxes were retired records of a different Congressman. The
additional two boxes were originally pulled when the researcher sent the request for the 10 boxes
discussed above.

The problems identified above were not escalated and discussed with management.
Management was not informed of the issue until it was raised by the OIG. While the
Congressional Liaison took the initiative to investigate, the Archives Technicians failed to act
when the researcher discussed his concerns regarding the problems. The Archives Technicians
also failed to involve their Supervisor once the problem was identified.

Management was asked to perform an inquiry into the issues raised by OIG Investigations.
Based on the results of the inquiry, management identified some recommendations, including:
(1) developing comprehensive procedures as WNRC lacked updated standard operating
procedures, (2) immediately focusing on the ARCIS-era interaction between Customer
                                             Page 14
                          National Archives and Records Administration
                                                                     OIG Audit Report No. 12-05


Reference Numbers and ARCIS Transfer Numbers, and (3) developing and implementing a
better way to track WNRC’s ARCIS billing.

Problem refiles and boxes
There were approximately 2,500 boxes stored in one of the record storage areas at WNRC which
are considered “problem refiles.” These boxes were returned to WNRC for refiling, but due to
lack of information on the boxes per WNRC staff, they could not be refiled. Many of the boxes
had notes on them indicating either (1) no information on charge cards (charge cards used
previously before ARCIS was implemented to track record movement), (2) no annotation on the
boxes, or (3) accession number missing. According to the Refile Supervisor, problem refiles
were not allowed after 2006, which means the majority of the 2,500 boxes existed prior to then.
A final resolution had not been identified for the boxes during our audit.




             Figure 4: Problem Refiles 	                       Figure 5: Problem Refiles

We also noted there were several new record transfer boxes sitting in the upper loading dock.
These boxes were labeled as “problem boxes.” There was no systematic process in place to
resolve the problems once the boxes were received by the Control Unit. Therefore, agencies
assumed their boxes were received and stored as outlined in the agreement between WNRC and
the agency.

A loss of records could erode agencies’ confidence in the FRCs. It could also potentially
jeopardize the FRCs ability to achieve the goal of providing high-quality storage for agencies.

Recommendation 3

The Executive of Agency Services should ensure:

   a)	 A Problem Resolution Process is created for all problems, regardless of whether they are
       considered major or minor. All problems should be tracked to resolution and supported
       by adequate documentation.
   b)	 A mechanism (database, etc.) to facilitate the problem tacking and resolution process is
       implemented.



                                              Page 15
                           National Archives and Records Administration
                                                                                  OIG Audit Report No. 12-05


Management Response

Management concurred with the recommendations.



4. Controls over disposals were not adequate to ensure records were
   disposed of in a timely manner.
Controls over disposals needed improvement to ensure records were disposed of timely. During
the course of our audit we noted:

        WNRC did not destroy approved disposals in a timely manner;
        16,000 cubic square feet of approved non-textual disposals were sitting on WNRC
         shelves at no cost to agencies; and
        The T&D department performed an inefficient process using excessive reviews and
         spreadsheets to identify records for disposal.

These conditions existed because WNRC did not implement effective management controls over
disposals. According to the FRC Toolkit 1, when an agency returns the approved disposal notice
                                                 1F




the FRC is to destroy the records as scheduled. Adherence to retention schedules is good records
management. As a result of the issues noted, there were records occupying space on shelves that
could be used for records that are currently sitting in hallways at no cost to the agency. In
addition, WNRC has lost a total of $131K since 2001 and will continue to lose $50K a year in
revenue, by storing non-textual records on the shelves at no cost to the agencies. 2             2F




Untimely record disposals
During the course of our audit, we noted five instances out of the fifteen tested where the agency
approved records for disposal however, WNRC did not dispose of them. In three of these
instances, the disposal authority schedule had changed and needed to be reviewed by the T&D
Supervisor prior to destruction. Those records had been approved for over a year and no one in
T&D had reviewed them to determine if they could be destroyed. In another instance, the
transfer contained SCI material and required a special disposal run. The transfer had been
approved for over a year. As of the end of our fieldwork, there were no plans for disposing of
this transfer. In the last instance, the records had been approved for disposal for over three years,
but were not destroyed because the Acting Director of WNRC was concerned the agency did not
have the correct disposal schedule. However, WNRC had not contacted this agency since March
2007 to resolve the matter. At the end of fieldwork, there was 1,546 cubic feet of records from
this agency eligible for disposal. The T&D Supervisor stated there wasn’t enough staffing in

1
  The FRC toolkit is a resource for Federal employees with records management responsibilities. It provides step-
by-step instructions for transferring, retrieving, and returning records to a FRC as well as information on records
disposition and accession of records into the national Archives at the end of their retention schedule.
2
  We calculated this loss of revenue by aging the approved disposal records based on their approval date to get the
amount of time they had been approved for disposal by month and year. We then multiplied that time by the
applicable monthly storage cost for that year.
                                                 Page 16
                              National Archives and Records Administration
                                                                    OIG Audit Report No. 12-05


place for them to adequately follow-up with agencies. Once an agency approves records for
disposal, they no longer pay storage fees. Therefore, in each of these instances, these records
were stored at no cost to the agencies and occupied space on the shelves that new records could
occupy. WNRC is losing revenue by not adequately following up with agencies timely in order
to remove records from the shelves and to dispose of them.

Non-textual records not disposed
WNRC holds over 16,000 cubic square feet of non-textual records that have been approved for
disposal, but not destroyed. Once the agency approved the records for disposal, they no longer
have to pay storage costs to WNRC. WNRC did not destroy them because they did not have a
contract with a vendor that could destroy non-textual records. The OIG obtained a report from
WNRC that listed all non-textual records approved for destruction from 2001 through 2011. We
determined WNRC lost a total of $131K from 2001 to 2011. The yearly amount escalated in
2011 to $50K and WNRC will continue to lose this amount each year in revenue if they allow
these records to sit on the shelf at no cost to the agencies. During the time of the audit, WNRC
management was not actively seeking a contract to destroy non-textual records. If a contract is
not secured, WNRC will continue to lose revenue since these non-textual records are sitting on
the shelves for free and are occupying space on the shelf that new records could occupy.

Inefficiencies in disposal processing
WNRC relied on an inefficient process as the T&D unit performed excessive reviews and used
spreadsheets to identify records for disposal. Although a review of SF-135s is completed when
records are transferred, WNRC reviews them again once the records are eligible for disposal.
Prior to destruction, the listing of records for disposal are reviewed by the T&D Supervisor and
the Acting Director of WNRC. These excessive reviews create a tedious inefficient process.
Efficiencies could be gained by streamlining the review process by eliminating excessive
reviews and automating part of the process through ARCIS.

Recommendation 4

The Executive of Agency Services should ensure:

   a) A vendor is secured to destroy non-textual records.
   b) Records already approved for disposal are destroyed.
   c) The disposal review process is streamlined.

Management Response

Management concurred with the recommendations.




                                            Page 17
                         National Archives and Records Administration
                                                                             OIG Audit Report No. 12-05


5. Periodic inventories were not conducted.
Periodic physical inventories of records were not conducted at WNRC. This occurred because
conducting periodic inventories was not a management priority or policy. According to OMB’s
Circular A-123, Management's Responsibility for Internal Control, periodic reviews,
reconciliations or comparisons of data should be included as part of the regular assigned duties
of personnel. A record inventory is the foundation of sound records management and without it
there is the risk agencies’ records could become unaccounted for.

In December 2007, WNRC began a one time inventory of the Top Secret, Restricted Data, and
Formerly Restricted Data storage areas of the Vault. The inventory of the remaining areas of the
Vault was started in January 2008. The inventory revealed thousands of agencies’ records were
missing. An inventory problem resolution team was formed in January 2008. As of the end of
fieldwork, the inventory was still in process without a final resolution or follow-up with all
agencies regarding the status of their records. Issues resolved to date were documented on hard
copy inventory worksheets. Based on our review, the inventory resolution documentation was
difficult to follow, disorganized, and sloppy. In addition, the resolution process mostly relied on
the knowledge of one manager who had extensive history knowledge of WNRC. Should that
employee leave WNRC, the historical knowledge would be lost and the consequences profound.

In November 2010, WNRC indicated 3,202 boxes (1,864 classified and 1,338 unclassified)
belonging to 49 agencies were not on the shelf and potentially missing. In July 2011, WNRC
began notifying agencies about the unaccounted for and potentially missing boxes. However, as
of the end of fieldwork, all agencies had not been notified of the missing records. 3      3F




Besides the efforts to inventory the classified Vault, no effort was made by management to
perform periodic inventories of other storage areas at WNRC. Although ARCIS is used to track
the location and movement of records, periodic inventories were not used to validate ARCIS
data. WNRC’s Acting Director agreed a periodic systematic, repeatable inventory process
needed to be developed. Lack of proper management controls and periodic inventories have
contributed to the plethora of missing records.

Recommendation 5

The Executive of Agency Services should ensure a process to perform periodic inventories of the
records held at WNRC is documented and implemented. This process should be systematic and
repeatable.

Management Response

Management concurred with the recommendation.



3
 As of December 2011, WNRC indicated they contacted all agencies with missing records. However, this had not
been validated by the OIG.
                                               Page 18
                            National Archives and Records Administration
                                                                          OIG Audit Report No. 12-05


6. Records stored at WNRC were not adequately safeguarded.
WNRC did not ensure records were carefully maintained and safeguarded. This occurred
because management did not enforce policies to safeguard records. According to NARA 260,
Food and Drink near Archival and Record Center Holdings, food and drink are prohibited where
holdings are present because they damage records and attract pests. Also, according to the Code
of Federal Regulations 36 CFR Part 1220, Federal Records, records are to be protected in a safe
and secure environment. Failure to properly store and protect records stored at WNRC could
lead to damaged records.

Food, Drink, and Tobacco
During our review, we noted employees and contractors were allowed to bring and store food
and beverages in the record storage areas. On various occasions we observed evidence that food
(see Figures 6 and 7) and tobacco were consumed in the record storage areas. Although lockers
and a break room were on the premises, they were not always used to either store or consume
food and beverages. Also, one Supervisor chewed tobacco and used a container from his pants
pocket to dispose of tobacco from his mouth when walking in the record storage areas.

Once the OIG discussed the food and beverages finding with management in February 2011, a
memorandum was issued in March reminding employees the food and drink policy was still in
effect. It also defined food and drink and where the items were prohibited and permitted.




    Figure 6: Water bottle laying on top of records   Figure 7: Candy wrapper lying on the floor of a record
                                                                          storage area

Record Storage
We noted records were not properly stored in the record storage areas as there were (1) records
spilling out of boxes, (2) damaged boxes, (3) boxes sitting in aisles, and (4) box contents sitting
on shelves. Once boxes became old and deteriorated it appeared no effort was made to replace
the boxes. Also, aisles frequented by staff contained boxes that clearly needed to be
rehabilitated. While WNRC’s physical facility is not in the best condition, every opportunity
should be taken to safeguard the records entrusted to the record center.



                                                Page 19
                             National Archives and Records Administration
                                                                      OIG Audit Report No. 12-05




      Figure 8: Record not properly stored. 	         Figure 9: Documents spilling out of a box.




      Figure 10: Documents not secured in box 	         Figure 11: Box sitting in middle of aisle



Recommendation 6

The Executive of Agency Services should ensure:

   a)	 Employees and contractors are reminded not to consume food, beverages, and tobacco in
       the record storage areas as outlined in NARA 260, Food and Drink near Archival and
       Records Center Holdings. In accordance with the directive, discipline anyone who does
       not comply.
   b) A detail review of the record storage areas is performed to assess the conditions of
       records stored at WNRC. Problems identified should be corrected.
   c) Employees are reminded the importance of safeguarding records, including what to do
       when boxes deteriorate or no longer support the stored contents.

Management Response

Management concurred with the recommendations.



                                              Page 20
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 12-05


7. Access to ARCIS was not properly restricted.
Terminated and transferred employees and contractors maintained active user accounts to
ARCIS. In addition, current employees had access that was not commensurate with their job
responsibilities. This occurred because periodic access reviews were not performed to determine
whether individuals needed to maintain their existing ARCIS access. According to NARA 279,
Exit Clearance Procedures for Separating or Reassigned NARA Employees, Contractor
Employees, Volunteers, Interns, and Foundation Employees, when an employee is terminating
employment the clearance official must request termination of access to a local system. If a
reassigned individual has access to a system, the clearance official must determine whether
access should be terminated and if so they are to request termination of access. Failure to
properly delete ARCIS user accounts for terminated or reassigned individuals could potentially
lead to unauthorized access. It could also provide ample opportunities to conceal malicious
activity such as theft of records.

We reviewed active and inactive accounts in ARCIS. Based on our review, we found WNRC (1)
did not ensure employees job responsibilities required access to ARCIS and super-user rights
were not limited to certain individuals and (2) did not readily initiate action to terminate user
accounts for separated or transferred employees.

Active Accounts
In May 2011, there were 97 active ARCIS user accounts for WNRC. Based on review of the
active user accounts, we noted 12 user accounts did not have appropriate access including, (1)
five employees that worked on the 2008 Vault inventory were no longer assigned to work at
WNRC, (2) four individuals in management (Acting Director of WNRC, Director of Records
Center Operations, T&D Supervisor, and Acting Vault Manager), had excessive rights including
edit capabilities that allow them to transfer and dispose records, (3) two employees (a
Management Analyst and a Secretary) did not have appropriate access based on their job
responsibilities including edit capabilities that allow them to transfer records and create, modify,
and reserve space, and (4) one IT contractor who was not involved in WNRC record operations
had read-only access to ARCIS.

Inactive Accounts
Between January 2010 and May 2011, 29 ARCIS user accounts were changed to inactive status.
We noted 23 of the 29 accounts were changed because the employee or contractor transferred to
a different department or separated from NARA. When the OIG compared the employee’s or
contractor’s transfer or separation date from NARA to the date the account was made inactive,
we noted 18 accounts were not changed in a timely manner (Table 2 lists the 10 users whose
accounts remained active for more than 90 days after their separation or transfer). Nine of the 18
accounts were not changed until after the OIG made the request for the report of ARCIS users.




                                             Page 21
                          National Archives and Records Administration
                                                                      OIG Audit Report No. 12-05

                                              Table 1
                         User Account           Number of days between
                                             separation/transfer dates from
                                           NARA and ARCIS inactive account
                                                      status dates
                        User Account 1                    333
                        User Account 2                    204
                        User Account 3                    198
                        User Account 4                    197
                        User Account 5                    189
                        User Account 6                    147
                        User Account 7                    146
                        User Account 8                    109
                        User Account 9                    109
                        User Account 10                    95



Recommendation 7

The Executive of Agency Services should ensure accounts for separated or terminated employees
are terminated in a timely manner. Also, quarterly reviews of access to ARCIS should be
performed to identify whether user accounts access is appropriate.

Management Response

Management concurred with the recommendations.



8. ARCIS did not accurately reflect the current status of records.

Our review found ARCIS was not updated in a timely manner to reflect the current status of
records held by WNRC. We also noted WNRC ARCIS users skipped statuses when processing
records in ARCIS. These weaknesses exist because WNRC management did not implement
effective internal controls, including monitoring anomalies. According to the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal Government,
internal controls should generally be designed to assure that ongoing monitoring occurs in the
course of normal operations. Internal controls are performed continually and are ingrained in the
agency’s operations. They include regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties. As a result of the above
issues, WNRC cannot ensure records are properly accounted for. Without a consistent process
for monitoring anomalies, WNRC’s ability to identify and address potential issues is limited.

Incorrect ARCIS status
Upon initial receipt, records transferred to WNRC are to be captured in ARCIS as RECEIVED
and subsequently transitioned to a SHELVED status when appropriate. RECEIVED status

                                            Page 22
                         National Archives and Records Administration
                                                                      OIG Audit Report No. 12-05


indicates all containers are received. SHELVED status indicates all containers associated with
the record transfer are shelved.

During our review we found management lacked the controls, including management reports, to
monitor items received and shelved to ensure record transfers were shelved timely and ARCIS
was updated timely and accurately. Our review found there were 56 record transfers received at
WNRC in 2009 and 2010 that remained in RECEIVED status in May 2011. We noted
exceptions with 48 of the 56 record transfers. Based on discussion with management these
transfers were either not received, already shelved, or sitting on the loading dock at WNRC. The
T&D and Control Unit Supervisors indicated the following regarding the 48 exceptions:

   	 Twenty-eight were never received at WNRC and were mistakenly categorized in
      RECEIVED status. No detailed research was performed by management to identify the
      root cause of why the record transfers were mistakenly categorized. The record transfer’s
      statuses were changed back to the APPROVED status in ARCIS after the OIG brought
      them to management’s attention.


       Table 2: Record Transfers never received at WNRC, but mistakenly categorized in RECEIVED
       status
                         Number of                       Number of                       Number of
                           days in                         days in                         days in
                         RECEIVED                       RECEIVED                         RECEIVED
         Date Received    STATUS         Date Received    STATUS        Date Received     STATUS
        1) 5/21/2009         725        11) 6/1/2010         349       21) 10/19/2010       209
        2) 9/28/2009         595        12) 6/1/2010         349       22) 11/2/2010        195
        3) 10/16/2009        577        13) 6/18/2010        332       23) 11/2/2010        195
        4) 11/4/2009         558        14) 8/26/2010        263       24) 11/12/2010       185
        5) 11/25/2009        537        15) 9/1/2010         257       25) 12/1/2010        166
        6) 2/23/2010         447        16) 9/1/2010         257       26) 12/1/2010        166
        7) 4/9/2010          402        17) 9/9/2010         249       27) 12/1/2010        166
        8) 5/6/2010          375        18) 9/14/2010        244       28) 12/21/2010       146
        9) 5/6/2010          375        19) 10/8/2010        220
        10) 5/25/2010        356        20) 10/19/2010       209

   	 Eleven record transfers were already shelved. No rationale was provided for why the
      records did not have the correct status of SHELVED. Based on examination by the OIG,
      two of the eleven records were postmarked months prior to the RECEIVED date in
      ARCIS. According to the Control Unit Supervisor, the lag time between when the two
      boxes were received and when they were updated in ARCIS occurred because Vault
      personnel physically received the record transfers, but it was the responsibility of the
      Control Unit to change the items to RECEIVED status in ARCIS. A lack of coordination
      between the Vault and Control Unit contributed to the record transfers not being
      processed in a timely manner.




                                            Page 23
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 12-05




        Table 3: Record Transfers in RECEIVED status at WNRC, but already shelved
                          Number of                      Number of
                            days in                        days in
                         RECEIVED                        RECEIVED
        Date Received      STATUS       Date Received     STATUS
        1) 9/24/2010         234        7) 12/4/2010        163
        2) 9/24/2010         234        8) 12/9/2010        158
        3) 10/1/2010         227        9) 12/14/2010       153
        4) 11/10/2010        187        10) 12/22/2010      145
        5) 11/10/2010        187        11) 12/23/2010      144
        6) 11/18/2010        179

   	   Eight record transfers were sitting in the aisles of the record storage areas or on the
        loading dock. The records were not shelved due to their unique size and spacing
        problems at WNRC.

        Table 4: Record Transfers received at WNRC, but sitting in the 

        aisles of the record storage areas or on the loading dock

                            Number of                          Number of
                              days in                            days in
                           RECEIVED                           RECEIVED
        Date Received        STATUS         Date Received       STATUS
        1) 5/6/2010             375        5) 7/21/2010            299
        2) 5/28/2010            353        6) 11/24/2010           173
        3) 7/15/2010            305        7) 12/7/2010            160
        4) 7/21/2010            299        8) 12/28/2010           139

   	 One record transfer received in November 2010 was permanently withdrawn by the
      customer. It was left in RECEIVED status because it was expected to ship out in January
      2011; however it did not ship out until March 2011. After the shipment, the ARCIS
      status was supposed to be changed to PERMANENTLY WITHDRAWN. This still had not
      taken place in July 2011.

        Table 5: Record Transfer permanently withdrawn
                         Number of
                           days in
                         RECEIVED
        Date Received     STATUS
           11/24/2010        173

For each of the exceptions noted above, agencies were not billed for storage at WNRC since the
records had not been shelved, resulting in lost revenue of $2,379 as of May 2011. Although
minimal, this could accumulate if not monitored by management.

Skipped ARCIS statuses
During the review of the classified records quality assurance process, we noted the reviewer did
not always check the QUALITY CONTROL status in ARCIS. The auditor indicated if the system
                                             Page 24
                         National Archives and Records Administration
                                                                    OIG Audit Report No. 12-05


was slow, the status was skipped and the READY FOR SHIPMENT STATUS was checked in
ARCIS. While checking the QUALITY CONTROL status in ARCIS does not provide assurance
the action took place, it does provide an audit trail.

We also noted at the end of the auditing process for unclassified records being shipped to
agencies, the status in ARCIS was changed to SHIPPED after the QUALITY CONTROL status,
but prior to the records shipment. The records may not actually be shipped on that day, but the
status was changed prior to the Mailroom personnel completing shipping labels and preparing
records for shipment. This practice could lead to confusion with agencies that use the ARCIS
customer portal as they may be under the assumption that records were shipped when they are
actually still at WNRC.

Recommendation 8

The Executive of Agency Services should ensure management designs and implements
monitoring activities (including anomalies) for records processed at WNRC, including weekly,
monthly, and quarterly reports.

Management Response

Management concurred with the recommendation.



9. WNRC did not require agencies to use the ARCIS Customer
   Portal.
Federal agencies storing records at WNRC did not fully utilize ARCIS’ Customer Portal. This
occurred because WNRC management believed that in order to provide customer service they
should not require customers to utilize the Customer Portal to its full capability. According to
the ARCIS manual, ARCIS will serve as the online portal through which agencies conduct
business with the FRCs. It allows agencies to handle transactions online, reducing paperwork
and saving time. Failure to require customers to fully utilize the Customer Portal increases the
risk of error by WNRC employees as they have to manually enter requests in ARCIS. It is also a
waste of the funds NARA invested in creating ARCIS if it is not used to its full capacity.

ARCIS reference requests can be submitted and tracked by FRC customers through the ARCIS
Customer Portal. During our review we noted not all agencies utilized the ARCIS Customer
Portal to request records. Requests were sent via email, fax, telephone, and via ARCIS. Once
the requests were received by WNRC, they were logged by personnel into ARCIS. Although no
errors were found by the OIG auditors, we noted there was no secondary review performed to
ensure the requests were entered as requested. Dedicating resources to these tasks may not be
the best use of employee’s time as those resources could be assigned to other tasks throughout
WNRC.

                                            Page 25
                         National Archives and Records Administration
                                                                              OIG Audit Report No. 12-05


Recommendation 10

The Executive of Agency Services should ensure a plan is developed to help all agencies
transition to fully using all of the features available in ARCIS’ Customer Portal.

Management Response

Management concurred with the recommendation.



10.	 Employees have not been trained on the Classified Standard
  Operating Procedures and there was no monitoring to ensure the
  procedures were operating as written.
WNRC employees have not been trained on the processes outlined in the Classified Standard
Operating Procedures (SOP) manual. In addition, there was no monitoring in place to ensure the
procedures in the Classified SOP were operating as written. Management relied on signed
acknowledgement statements from employees stating they read the procedures and would adhere
to them. According to the GAO’s Standards on Internal Control, all personnel need to possess
and maintain a level of competence that allows them to accomplish their assigned duties, as well
as understand the importance of developing and implementing good internal control. In addition,
management needs to identify appropriate knowledge and skills needed for various jobs and
provide needed training. Without proper training and monitoring, management cannot ensure
classified processes are operating effectively and classified records are properly safeguarded in
accordance with the Classified SOP.

During the course of our audit, we noted there was no formal training provided to employees to
ensure they were aware of what the procedures were and how to perform the procedures outlined
in the Classified SOP. As a result, many of the procedures outlined in the Classified SOP were
not performed. Specifically, we noted the following procedures were not in operation:
                                                  Table 6
Section of                                      Procedures not in operation
SOP
5.2 (B.2)        Combinations must be changed immediately when an individual with access to the
                  combination, password, or PIN number no longer requires access or leaves the Records Center
6.0 (C)       Visitors requesting classified records be returned to their agency must:
               Possess a valid, agency issued courier badge
               Be authorized by their agency records officer to accept records on behalf of the agency; and,
               Have a current Visitor Authorization Letter on file with the Vault Manager and NASS
                  Personnel Security at Archives II
6.2 (C)        Immediately upon receipt of records the mailroom staff must verify in ARCIS the
                  classification status of deliveries containing refiles. Records must be verified before moving
                  the records from the dock.
6.3 (A)        On the specific days reserved for the Defense Intelligence Agency (DIA) deliveries, new
                  transfers and re-files, an individual with Sensitive Compartmented Information access must be

                                              Page 26
                           National Archives and Records Administration
                                                                               OIG Audit Report No. 12-05

                  present to review the contents of each box while the courier is present.
                 Prior to signing the courier receipt and accepting physical custody of DIA records, each box
                  must be opened in the presence of the courier and the classification level of the contents
                  verified against the overall classification level identified on the SF 135.
6.5 (B)          NARA and other agency personnel wishing to hand-carry classified material (originals or
                  reproductions) maintained by WNRC must provide an agency issued, valid courier card or an
                  original memo on official letterhead from the agency, granting them permission to transport
                  classified information prior to taking custody of the requested material.
                 WNRC staff is not authorized to release classified material unless the courier provides proof in
                  the form of a valid agency issued courier card or memo stating authorization.
6.9 (A)          The Vault Manager conducts and documents Intrusion Detection System and Response Force
                  testing annually, in coordination with the ISPM.
                 Keep IDS and Response Force test records on file for two years.
7.2 (B)          The ISPM shall conduct a walk-thru with the Division Director and Deputy Division Director,
                  WNRC on a quarterly basis to identify deficiencies and decide on corrective actions. The
                  documented items and corrective actions will be maintained as part of the security file.
7.3 (A)          WNRC staff shall report immediately all incidents that involve the potential or actual
                  compromise or loss of classified material to the ISPM and Vault Manager.

In addition, during the fieldwork, there were staffing changes that occurred within the Vault.
Five new individuals began working in the Vault including a new Vault Manager. Although
these individuals were trained on how to identify and protect classified information, none of
these individuals received training on the Classified SOP. The ISPM was aware the procedures
in the Classified SOP were not fully being followed and stated there were no plans to provide
training or to put any monitoring in place.

Recommendation 9

The Executive of Agency Services should ensure:

    a) Appropriate training is provided to Vault personnel on the Classified SOP.
    b) A training program for new Vault employees is implemented.
    c)	 A monitoring process is implemented for ensuring classified operations are performed as
        written in the Classified SOP.
    d)	 The Classified SOP is reviewed on an annual basis and updated when necessary.

Management Response

Management concurred with the recommendations.



11.	 FRC packaging standards were not always followed by
  customer agencies sending records to WNRC.
Records sent to WNRC by agencies were not always sent in secured boxes. This occurred
because management allowed agencies to create their own standards instead of enforcing the
FRCs standards. According to the FRC Toolkit, agencies are to seal their boxes securely with
                                          Page 27
                       National Archives and Records Administration
                                                                               OIG Audit Report No. 12-05


packing tape. It further states boxes that arrive at the center out of order; including being
improperly taped, may require extensive remedial effort and increased costs. Failure to secure
the contents of the boxes increases the risk of them being lost, damaged, or mishandled.

During the course of our audit, we noted various records from the Social Security Administration
were shipped to WNRC without box tops. The social security numbers on these records were
exposed. Once the boxes arrived at WNRC, there was no process in place to close and seal the
boxes. They were stored as received in areas accessible by employees and contractors.




 Figure 12: Social Security Administration files left on   Figure 13: Social Security Administration files in the
 the loading dock of WNRC. Social Security numbers         hallways at WNRC. Social Security numbers were in
                  were in plain view.                                           plain view.

Recommendation 11

The Executive of Agency Services should ensure explicit requirements are communicated to
agencies on how boxes should be transferred to FRCs. When boxes do not meet these
requirements, FRCs should correct the problems and enforce the policy of billing agencies for
the additional costs to correct the problems.

Management Response

Management concurred with the recommendation.



12.	 Documented procedures did not exist for many WNRC
  operations.
Documented procedures were not written for many of the operations at WNRC. Procedures did
not exist because WNRC used the knowledge of many seasoned employees to explain
procedures, although those employees’ procedures may have been incorrect. As a result,
personnel did not always know or follow correct procedures to follow for their job duties. Lack
of current documented procedures result in inconsistent process operations, key person
dependencies, and overall process inefficiency. Likewise, the use of ad-hoc and unstructured
                                            Page 28
                         National Archives and Records Administration
                                                                        OIG Audit Report No. 12-05


processes and procedures places records (to include classified records) at risk of loss or
unauthorized access.

GAO’s Standards for Internal Control in the Federal Government, states management is
responsible for developing the detailed policies, procedures, and practices to fit their agency’s
operations and to ensure that they are built into and an integral part of operations. Information
should be recorded and communicated to management and others within the entity, who need it,
and in a form and within a time frame, which enables them to carry out their internal control and
other responsibilities.

During the course of our audit, we were unable to obtain written procedures for many WNRC
processes. As indicated in the table below, documented procedures did not exist for 11 of the 13
main processes performed at WNRC.

                              Table 7: WNRC Processes vs. Documented Procedures
                           Areas of Review                                Documented Procedures
Processing new transfers – SF-135s                                                Yes
Processing requests for existing records (classified and unclassified)             No
Refiling records (classified and unclassified)                                     No
Processing disposals                                                              Yes
Processing delivery of new records (classified and unclassified)                   No
Processing delivery of re-files (classified and unclassified)                      No
Access procedures at WNRC                                                         No
ARCIS access requests and reviews                                                  No
Key inventory                                                                      No
Auditing process (classified and unclassified)                                     No
Conducting periodic inventories                                                    No
Management reporting                                                               No
Safeguarding records (including access to the Vault and                            No
authorizations for access to records)

Management agreed procedures were either outdated or were missing. Prior to the end of our
fieldwork, management began drafting procedures for some WNRC processes.

Recommendation 12

The Executive of Agency Services should ensure:

   a) Procedures for all WNRC processes are documented. Review existing procedures and
      update as necessary.
   b) Procedures between unclassified and classified processes are consistent where possible.

Management Response

Management concurred with the recommendations.



                                             Page 29
                          National Archives and Records Administration
                                                      OIG Audit Report No. 12-05


Appendix A – Acronyms and Abbreviations

ARCIS       Archives and Records Centers Information System
BX          Security Management Division
CFR         Code of Federal Regulations
DIA         Defense Intelligence Agency
FRC         Federal Records Center
GAO         Government Accountability Office
H           Office of Human Capital
ISPM        Information Security Program Manager
NAHR        Employee Relations and Benefits Branch
NARA        National Archives and Records Administration
NARS-5      National Archives and Records Service
OIG         Office of Inspector General
OMB         Office of Management and Budget
SOP         Standard Operating Procedures
T&D         Transfer & Disposition
WNRC        Washington National Records Center




                                 Page 30
              National Archives and Records Administration
                                                      OIG Audit Report No. 12-05 



Appendix B – Management’s Response to the Report




                                 Page 31 

              National Archives and Records Administration
                                                               OIG Audit Report No. 12-05


Appendix C – Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND) 

Chief Operating Officer (C) 

General Counsel (NGC) 

Chief Human Capital Officer (H)

Executive of Agency Services (A) 

Federal Records Center Program (AF) 

Management Control Liaison, Performance and Accountability (CP) 





                                          Page 32
                       National Archives and Records Administration
